audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grant to the Green Bay, Wisconsin Police Department

GR-50-00-020
May 31, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Green Bay, Wisconsin Police Department (PD).  The purpose of the grants is to enhance community policing.  The Green Bay PD was awarded a total of $1,063,781 to hire 14 entry level sworn police officers and redeploy the equivalent of one-half of an existing full-time officer from administrative duties to community policing.
	
	We reviewed the Green Bay PD's compliance with eight essential grant conditions and found the grantee's practices to be generally acceptable.  However, we noted the grantee's reimbursement requests contained unallowable costs for officer salaries and fringe benefits that resulted in $49,591 in questioned costs.  In addition, several status reports were not timely.  

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.